        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report

Management of the Department's
Publicly Accessible Websites




DOE/IG-0789                           March 2008
                             Department of Energy
                                 Washington, DC 2 0 5 8 5
                                  M a r c h 1 3 , 2008



MEMORANDUM FOR THE SECRETARY

FROM:
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Management of the
                         Department's Publicly Accessible Websites"

BACKGROUND

The Department of Energy and its prime contractors operate hundreds of publicly
accessible websites. These sites provide a wide range of information about the
Department's energy, science, defense and environmental missions. Ensuring that these
websites are secure and that infonnation is current and readily accessible is vital to efforts
to provide one-stop, on-line access to citizens; this includes the objectives in the arena
established as part of a current Presidential initiative. In 2004, the Office of Management
and Budget issued a memorandum detailing Federal website requirements, such as
accessibility guidelines, set forth in Section 508 of the Rehabilitation Act, and specific
website requirements outlined in the E-Governnzent and Government Performance and
Reszllts Acts.

Virtually all interested parties recognize that facilitating con~municationwith the
citizenry is in the national interest; however, the unavoidable fact is that such
communication may well impact agency cyber security vulnerabilities. In our recent
report on The Departlnent's Unclasszfied Cyber Security Progranz - 2007 (DOEIIG-0776,
September 2007), we reported on unclassified Department networks on which publicly
accessible web servers were not always properly secured. Recently, both Federal and
commercial websites have fallen victim to widely publicized attacks and data exfiltration.
Because of increasingly sophisticated attacks and the risk of harm from improperly
secured web servers and sites, we initiated this audit to deternline whether the
Department was maintaining publicly accessible websites that were secure and managed
in accordance with Federal requirements.

RESULTS OF AUDIT

Our audit identified several opportunities to improve the security and management of the
Department's publicly accessible websites. Specifically:

       We identified over 50 significant cyber security incidents in the last three fiscal
       years, about half involving the defacement of web pages, which, in our judgment,
       could have been prevented had proper security controls been in place;




                                429   Printed with soy   111kon   recycled paper
       Content on publicly accessible web servers was not always controlled and
       reviewed periodically, contributing to an additional eight incidents which
       involved the exposure of personally identifiable infornlation to unauthorized or
       malicious sources; and,

       Most of the organizations reviewed also had not incorporated
       contingency/emergency planning features, provided accessibility for individuals
       with disabilities, and/or disabled unneeded computer services for their publicly
       accessible websites - factors that decreased the utility and increased the risk of
       malicious damage to those websites.

We concluded that the risk that the Department's publicly accessible websites and the
data they contained could be conipromised was higher than acceptable. A lack of
guidance from Headquarters and deficiencies in site-level management and control
contributed to: ( 1 ) an unnecessarily risky security posture; and (2), publicly accessible
websites that did not meet Federal accessibility requirements or contingency planning
and emergency response best practices. For example, while the Office of the Chief
Information Officer recognized the need for web security tools and implementation
guidance, action had not been taken to procure the necessary tools. And, guidance
documents had yet to be finalized and promulgated. None of the sites reviewed had
incorporated security configuration requirements into their website policies and most had
not established a process to review content posted on websites.

To their credit, certain of the Department's sites had taken actions to inlprove the security
and utility of their publicly accessible websites. In particular, four field sites [Oak Ridge
National Laboratory, Los Alamos National Laboratory (LANL), Livermore National
Laboratory and the Lawrence Berkeley National Laboratory (Berkeley)] had
implemented proactive techniques to scan their web applications to detect potential
vulnerabilities to help prevent successful attacks. In addition, three sites (LANL,
Berkeley, and Sandia National Laboratories), had developed websites specifically for use
during a national emergency, such as a hurricane, earthquake, or forest fire. All sites
reviewed had also taken action to reduce the risk that site-wide networks would not be
compromised through successful exploits of publicly accessible websites. These actions
are beneficial; however, additional emphasis is needed in these areas. To that end, we
made recommendations that, if implemented, should enhance the Department's ability to
secure and manage its public websites.

Due to security considerations, information on specific vulnerabilities and locations has
been omitted from this report. Management officials at sites evaluated were provided
with detailed information regarding identified vulnerabilities.

MANAGEMENT REACTION

Management agreed with the information contained within the report and concurred with
each of the specific recommendations. Management stated that measures were being
taken to ensure that the issues highlighted in our report are addressed. The National
Nuclear Security Administration's (NNSA) comments, however, were not fully
responsive in that they only addressed websites at two NNSA locations - websites that, at
the time of our testing, satisfied most requirements. NNSA did not comment on
problems we identified with contractor-operated web sites. Where appropriate, we
incorporated management's suggestions into the body of the report. Relevant comments
are included in Appendix 3.

Attachment

cc: Deputy Secretary
    Under Secretary of Energy
    Under Secretary for Science
    Administrator, National Nuclear Security Administration
    Chief Information Officer
    Chief of Staff
REPORT ON MANAGEMENT OF THE DEPARTMENT'S PUBLICLY
ACCESSIBLE WEBSITES

TABLE OF
CONTENTS


    Website Management

    Details of Finding ....................................................................................................1

    Recommendations and Comments...........................................................................7


    Appendices

    1. Objective, Scope, and Methodology..................................................................9

    2. Related Reports................................................................................................11

    3. Management Comments ..................................................................................12
MANAGEMENT OF THE DEPARTMENT'S PUBLICLY
ACCESSIBLE WEBSITES

Security and          The Department of Energy (Department) did not always
Management            ensure that its publicly accessible websites were secure and
Processes             that key Federal requirements regarding website
                      management were enforced. Despite specific requirements
                      issued by the Office of Management and Budget (OMB)
                      and the National Institute for Standards and Technology
                      (NIST), the Department had not adequately addressed
                      security configuration and management issues related to its
                      publicly accessible web servers.

                                            Website Security

                      Sites had not implemented security measures necessary to
                      help reduce the risk of successful attacks on their publicly
                      accessible websites. In particular, our review identified a
                      number of website security incidents that could likely have
                      been prevented or ameliorated by the application of
                      effective security controls. The Department and its field
                      sites have reported about 60 incidents involving public web
                      servers to the Department's Computer Incident Advisory
                      Capability (CIAC) over the past 3 years (with 22 occurring
                      in the last fiscal year). The majority of these events could
                      likely have been prevented by ensuring security controls
                      were in place and that known web vulnerabilities were
                      properly managed and/or addressed. Approximately half of
                      the reported incidents resulted in malicious defacement of
                      the webpage. For example, a recent incident at the
                      Department's Brookhaven National Laboratory was
                      reported where hackers modified the website to redirect
                      users to pornography sites.

                      Sites also had not always controlled posted information or
                      performed regular reviews of information posted to their
                      public websites. For example, in accordance with Federal
                      requirements, the Department's Chief Information Officer
                      (CIO) requires that appropriate safeguards be in place to
                      protect the inadvertent exposure of personally identifiable
                      information (PII). Despite these requirements, we noted
                      that eight of the incidents in the past two years involved PII
                      or other sensitive information which was improperly
                      released through public websites, including names, social
                      security numbers, and credit card information. In one
                      instance, personal information for more than 60 individuals
                      was inappropriately posted to a publicly accessible website.

________________________________________________________________
Page 1                                            Details of Finding
                      Most of the sites and organizations reviewed did not always
                      understand and evaluate the risk to their web servers and
                      formally grant them the authority to operate through a
                      process known as certification and accreditation (C&A).
                      Through the C&A process, risks to the network and
                      systems are analyzed and security controls are tested. Any
                      residual risk must be accepted by management prior to
                      putting the system in operation. In one instance, however,
                      a site permitted the operation of numerous servers housing
                      publicly accessible websites on a network that had not
                      received proper authority to operate. At most sites, system
                      security plans also did not specifically identify the risk of
                      public access to the web servers by discussing controls that
                      had been implemented to mitigate the heightened risk of
                      such public access. The Department's continuing problems
                      with system C&A were detailed in our report on the
                      Certification and Accreditation of Unclassified Information
                      Systems (DOE/IG-0752, January 2007) and were most
                      recently highlighted in our Evaluation Report on the
                      Department's Unclassified Cyber Security Program – 2007
                      (DOE/IG-0776, September 2007).

                      We also noted that Headquarters organizations had very
                      limited knowledge of the numerous public websites in
                      operation complex-wide. Specifically, the Department was
                      unable to provide us with an inventory of active public
                      websites despite an E-Government Act requirement for
                      organizations to maintain that information. The importance
                      of such an inventory was illustrated during the
                      Department's response to a 2004 incident related to Official
                      Use Only (OUO) data being leaked to a public website. In
                      response, the CIO asked CIAC to scan all Department
                      public websites. However, a CIAC official told us that they
                      had to abandon this project because "thousands" of
                      websites were identified, making the effort very time
                      consuming, labor intensive, and, according to them,
                      virtually impossible to complete.

                      Two of the 12 field sites reviewed allowed computer
                      services that were unnecessary to operate a public website
                      – a practice that increased the websites' vulnerability to
                      exploits and attacks. NIST Special Publication (SP) 800-
                      44, Guidelines on Securing Public Web Servers, states that
                      each additional service enabled on a web server increases
                      the risk of server compromise as it provides an additional
                      avenue of attack. Although not specifically needed for site
                      operation, we identified one site that allowed users,
________________________________________________________________
Page 2                                            Details of Finding
                      including the public, to transfer files anonymously from
                      and potentially to 14 of its public web servers. Access
                      controls to ensure that users could not post data to the
                      server anonymously – a practice highly susceptible to
                      malicious use – were not monitored by the site's cyber
                      security group. Rather, responsibility was placed with
                      system owners to properly secure the server, individuals
                      who in many instances did not have the technical
                      background necessary to maintain awareness of current
                      website vulnerabilities.

                                  Website Management Requirements

                      We also identified several opportunities to improve the
                      utility and usefulness of the Department's public web
                      servers. For example, nine sites were not utilizing their
                      public websites as a means to provide information to
                      employees and the general public during emergency or
                      disaster situations. NIST SP 800-34, Contingency
                      Planning Guide for Information Technology Systems, states
                      that the Internet is an effective notification tool during a
                      disaster situation. In addition, best practices identified by
                      the Web Managers Advisory Council, an organization
                      made up of senior web managers from the Federal
                      government, recommend that organizations plan how their
                      website will communicate vital information during an
                      emergency and what services will be available to the
                      public. Action taken by the Los Alamos National
                      Laboratory (LANL) following the Cerro Grande fire in
                      2000 serves as an example of proactive implementation of
                      this guidance. LANL developed a website that can be used
                      to provide information and updates to employees and the
                      general public in future emergency situations. Sandia and
                      Lawrence Berkeley National Laboratories (Berkeley) had
                      also developed similar procedures.

                      Webpage scans performed during the audit also identified
                      several issues regarding the accessibility of the
                      Department's websites to disabled individuals. For
                      example, almost half of the 97 webpages reviewed were not
                      coded to allow people utilizing assistive technologies (such
                      as screen readers) to properly view or fill in forms on the
                      page. In an effort to make information accessible to
                      individuals with disabilities, including employees or
                      members of the general public, Section 508 of the
                      Rehabilitation Act of 1973 states that information

________________________________________________________________
Page 3                                            Details of Finding
                      technology (IT) utilized by Federal agencies should provide
                      a level of access and use comparable to those without
                      disabilities.

Attention and         The Department's public websites were not always secure
Control               or managed in accordance with Federal requirements due to
                      a lack of emphasis and attention from Headquarters and
                      proper management and control at the field site-level.

                                        Headquarters Emphasis

                      Despite OMB's emphasis on public website security and
                      management, the Department had not issued applicable
                      guidance at the Headquarters level. In response to OMB
                      Memorandum 05-04, which outlined Federal policies for
                      publicly accessible websites, the CIO issued memoranda in
                      2005 and 2006 that reiterated the OMB requirements but
                      did not provide implementing guidance or expected
                      timeframes for implementation. Following those
                      memoranda, the CIO's 2006 plan for the Revitalization of
                      the Department of Energy Cyber Security Program (the
                      Revitalization Plan) recognized the need for clear policy, as
                      well as tools, to facilitate webpage analysis. To that end,
                      the plan identified two deliverables - guidance on website
                      creation and management and enterprise licenses for
                      website analysis tools. While a web guidance manual was
                      drafted in 2005 as part of a separate initiative, it was never
                      approved and released. In 2007, in response to the
                      Revitalization Plan, a second manual was drafted, but had
                      not been issued at the time of our review. Our review of
                      the most recent draft guidance found that while it addresses
                      the key areas of information security and operations and
                      maintenance of Department public websites, it lacks
                      specificity and a timeframe for implementation. In
                      addition, the Department had not issued guidance
                      pertaining to implementation of requirements outlined in
                      Section 508 of the Rehabilitation Act. CIO officials stated
                      that, to date, no action had been taken to acquire and
                      provide website analysis tools.

                                          Site-Level Controls

                      While most sites had local policies regarding the
                      management of their publicly accessible websites, only two
                      had a mechanism in place to ensure regular review for
                      adherence to either site-level or Federal requirements.
                      Most of the incidents that we identified, as reported through
________________________________________________________________
Page 4                                            Details of Finding
                      CIAC, were the result of hackers taking advantage of
                      vulnerable webpages and poorly configured servers. In
                      addition, five of the sites maintained minimal control over
                      the development of public websites residing on their
                      network, allowing numerous websites to be maintained by
                      multiple site-level organizations or departments. For
                      example, one site had over 140 public web servers
                      managed by over 30 different departments. This practice
                      makes it difficult for the sites' information technology (IT)
                      groups to ensure that all necessary controls are in place and
                      content is reviewed on servers not directly under their
                      cognizance. It also requires the purchase and maintenance
                      of numerous servers to host websites.

                      Officials at Berkeley indicated that centralizing the
                      management of their public websites to solve these types of
                      issues could hinder the scientific process at the site.
                      However, Oak Ridge National Laboratory (ORNL) – a site
                      with missions very similar to those at Berkeley – recently
                      completed an application standardization effort, whereby
                      all legacy systems were transitioned to central management
                      in an effort to control costs and reduce risks to the site.
                      ORNL officials, citing expected cost and time savings,
                      made the decision to consolidate the site's numerous
                      independent websites and stated that consolidating all
                      websites under the control of the site's IT group enhanced
                      security of the servers. This effort allowed ORNL to
                      balance the need for scientific collaboration with security
                      risks.

                      Further, while we noted that all sites reviewed were
                      performing network-level vulnerability scans, only 4 of 11
                      field sites and 1 program office performed regular
                      application-level scanning of their public websites, a
                      practice that could disclose website-specific vulnerabilities.
                      Scanning and analysis of the results could help sites
                      identify webpages or applications that were not securely
                      programmed or configured. Our research into these tools
                      found that they can cost as much as $40,000 per user.
                      Therefore, the provision of an enterprise license for
                      scanning software, as called for in the Revitalization Plan,
                      could facilitate the field sites performing this type of
                      scanning.

Website Security      Without improvements in awareness and control of its
and Opportunities     numerous public websites, the Department faces increased
for Saving            risk of exploits that could expose it to potential loss of
________________________________________________________________
Page 5                                            Details of Finding
                      critical information or embarrassment and increased cost of
                      managing and maintaining its websites. Inconsistent and
                      weak management and control over web servers may result
                      in improperly configured servers, increasing the risk of
                      defacement or compromise of sensitive information.
                      Without having performed the C&A process on public web
                      servers, for example, the Department has no assurance that
                      security controls are in place and operating as intended. As
                      a result, the servers could be vulnerable to attack by
                      malicious persons. In 2006, the Systems Administration
                      Networking and Security Institute named web applications
                      to its annual Top 20 Internet Security Attack Targets. In
                      addition, CIAC officials stated that approximately 70-80
                      percent of the successful intrusion reports they received
                      involved web applications.

                      Further, uncontrolled proliferation of web servers makes it
                      difficult to perform content reviews to control posted
                      information, increasing the risk that sensitive or OUO
                      information may be inadvertently or deliberately posted
                      and released to the general public. For example, the
                      Revitalization Plan noted the potential for the creation of
                      sensitive data by combining non-sensitive data from
                      multiple websites. However, without an inventory of
                      websites, a review for this type of vulnerability is virtually
                      impossible for the Department to undertake. Furthermore,
                      we noted that only two of the eight instances of PII released
                      on public websites were identified internally as a result of
                      regular content reviews.

                      Finally, decentralized management of publicly accessible
                      websites can result in higher costs due to increased staff
                      needed to develop and maintain them and the numerous
                      servers needed to host them. By centralizing website
                      management at the site or data center level the
                      Department's sites could consolidate existing websites onto
                      fewer servers, thereby saving the cost of the server and
                      potentially reducing the number of staff needed to manage
                      and maintain them. At just 4 of the 12 sites we reviewed,
                      maintenance costs were significant and amounted to
                      approximately $3.5 million over the past 3 years. Those
                      costs do not include forensic and recovery costs incurred
                      when vulnerabilities are exploited.




________________________________________________________________
Page 6                                            Details of Finding
RECOMMENDATIONS      To address the issues identified in this report, we
                     recommended that the Department and the NNSA CIO's, in
                     coordination with the Under Secretary of Energy and the
                     Under Secretary for Science:

                          1. Develop Department policy and implementing
                             guidance that specifically addresses the key areas
                             of information security, operations and
                             maintenance, and accessibility of publicly
                             accessible websites.

                     To enhance the security and control over the Department's
                     publicly accessible websites, we further recommend that
                     the Administrator, NNSA, the Under Secretary of Energy
                     and the Under Secretary for Science:

                          2. Direct field sites to evaluate the large number of
                             publicly accessible websites being maintained and
                             take action to consolidate them, where
                             appropriate; and,

                          3. Ensure that publicly accessible website
                             development and postings at field sites are
                             actively controlled and monitored by field site
                             management.

MANAGEMENT           Management agreed with the information contained within the
REACTION             report and concurred with each of the specific
                     recommendations. The Department's Office of Chief
                     Information Officer (OCIO) provided comments stating
                     that actions would be taken to enhance the security and
                     management of the Department's publicly accessible
                     websites. Specifically, a revised directive containing
                     website development and management requirements,
                     responsibilities, and best practices is currently under review
                     in the Department's directive process. In addition, the
                     OCIO plans to develop guidance for automated review of
                     websites and servers by the end of Fiscal Year 2008.
                     Further, the OCIO is in the process of compiling website
                     domain information into a single database, which will serve
                     as the Department's website inventory, in accordance with
                     the E-Government Act. This action is expected to be
                     completed by June 2008.




________________________________________________________________
Page 7                              Recommendations and Comments
                     The Under Secretary for Science provided comments on the
                     report that were incorporated into the response provided by
                     the CIO. Comments provided by NNSA indicated
                     concurrence with the report's recommendations but only
                     reflected the status of NNSA's websites at its Federal
                     establishments, specifically Headquarters and the NNSA
                     Service Center.

AUDITOR              Management's comments are generally responsive to our
COMMENTS             recommendations. NNSA's comments were not fully
                     responsive, however, in that they only addressed websites
                     at 2 NNSA locations – websites that, at the time of our
                     testing, satisfied most requirements. NNSA's comments
                     did not discuss the publicly accessible website management
                     problems we observed at NNSA field sites. Specifically,
                     they did not mention or provide proposed corrective actions
                     for issues with network certification and accreditation,
                     content posting and review, and unnecessary services on
                     web servers at NNSA sites. These issues are more fully
                     described in the body of the report. Subsequent to our
                     receipt of the comments, an NNSA official acknowledged
                     that the comments did not cover contractor-managed
                     websites. Since the comments do not directly relate to the
                     issues described in this report, they have been omitted.




________________________________________________________________
Page 8                                                 Comments
Appendix 1

OBJECTIVE             The objective of this audit was to determine whether the
                      Department of Energy (Department) is maintaining public
                      websites that are secure and managed in accordance with
                      Federal requirements.

SCOPE                 The audit included publicly accessible websites that did not
                      require user authentication.

                      The audit was performed between September 2006 and
                      December 2007 at Departmental Headquarters in
                      Washington, DC, and Germantown, MD; the National
                      Nuclear Security Administration Service Center and Sandia
                      National Laboratory in Albuquerque, New Mexico; Los
                      Alamos National Laboratory in Los Alamos, New Mexico;
                      Lawrence Livermore National Laboratory in Livermore,
                      California; Lawrence Berkeley Laboratory in Berkeley,
                      California; Stanford Linear Accelerator Center in Menlo
                      Park, California; and Oak Ridge National Laboratory, the
                      Oak Ridge Office, the Y-12 National Security Complex,
                      the Office of Scientific and Technical Information, and the
                      East Tennessee Technology Park in Oak Ridge, Tennessee.

METHODOLOGY           To accomplish our objective, we:

                         •   Reviewed applicable laws and directives pertaining
                             to management and security of Federal public
                             websites;

                         •   Reviewed applicable standards and guidance issued
                             by the National Institute of Standards and
                             Technology;

                         •   Assessed the Department's and its field sites' public
                             website management and web server security
                             practices;

                         •   Scanned a sample of the Department's publicly
                             accessible webpages for compliance with
                             requirements pertaining to accessibility and privacy;

                         •   Held discussions with field site officials and
                             officials from various Departmental offices; and,

                         •   Reviewed reports by the Office of Inspector
                             General and the Government Accountability Office.


________________________________________________________________
Page 9                             Objective, Scope, and Methodology
Appendix 1 (continued)

                      We also evaluated the Department's implementation of the
                      Government Performance and Results Act and determined
                      that it had established performance measures for website
                      management. We did not rely solely on computer-
                      processed data to satisfy our objectives. However,
                      computer-assisted audit tools were used to perform scans of
                      various webpages. We validated the results of the scans by
                      performing other procedures to satisfy ourselves as to the
                      reliability and competence of the data produced by the
                      tests.

                      We conducted this performance audit in accordance with
                      generally-accepted Government auditing standards. Those
                      standards require that we plan and perform the audit to
                      obtain sufficient, appropriate evidence to provide a
                      reasonable basis for our findings and conclusions based on
                      our audit objectives. We believe that the evidence obtained
                      provides a reasonable basis for our findings and
                      conclusions based on our audit objectives. The audit
                      included tests of internal controls regarding the
                      management and security of public websites. Because our
                      review was limited, it would not necessarily have disclosed
                      all internal control deficiencies that may have existed at the
                      time of our evaluation.

                      Management waived an exit conference.




________________________________________________________________
Page 10                            Objective, Scope, and Methodology
Appendix 2

                               RELATED REPORTS


  •   Evaluation Report on the Department's Unclassified Cyber Security Program –
      2007 (DOE/IG-0776, September 2007). The Department of Energy (Department)
      continued to have problems in the areas of system certification and accreditation,
      system inventories, contingency planning, access controls, and the protection of
      personally identifiable information. The problems cited occurred, at least in part,
      because Headquarters programs and field sites had not fully developed or
      implemented policies that incorporated all Federal and Departmental cyber
      security requirements. In addition, the lack of oversight at various levels of the
      Department, including effective use of Plans of Action & Milestones, contributed
      to the weaknesses identified. Therefore, without an increased focus on protecting
      its critical technology resources, the risk of compromise to the Department's
      information and systems remained higher than necessary.

  •   Audit Report on Certification and Accreditation of Unclassified Information
      Systems (DOE/IG-0752, January 2007). Despite recent efforts by the Department
      to enhance cyber security guidance, many systems were not properly certified and
      accredited prior to becoming operational. For example, of the 14 sites reviewed,
      9 sites had not properly assessed the potential risk to their systems and had not
      adequately tested and evaluated security controls. In many instances, senior
      agency officials accredited systems even though they had not been provided with
      adequate or complete information. These issues occurred because the Office of
      the Chief Information Officer and program elements did not adequately review
      completed activities for quality or compliance with requirements. Therefore, the
      Department lacked assurance that its information systems and the data they
      contained were secure.

  •   Audit Report on Internet Privacy (DOE-IG 0493, February 2001). Of the 93
      Department websites reviewed, approximately 12 percent impermissibly
      employed persistent cookies to collect information from site visitors and 30
      percent did not satisfy Federal privacy disclosure requirements. Since the
      Department's data collection methods were not uniformly consistent with
      applicable regulations and lacked clear and current implementing guidance, the
      Department could not assure that the privacy of its website visitors was properly
      protected in all instances.




________________________________________________________________
Page 11                                           Related Reports
Appendix 3




________________________________________________________________
Page 12                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 13                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 14                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 15                                     Management Comments
                                                             IG Report No. DOE/IG-0789

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
